<html>
<title> - IMPROVING COLLEGE ACCESS AND COMPLETION FOR LOW-INCOME AND FIRST-GENERATION STUDENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]












                      IMPROVING COLLEGE ACCESS AND
                       COMPLETION FOR LOW	INCOME
                     AND FIRST	GENERATION STUDENTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION
                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 30, 2015

                               __________

                           Serial No. 114-13

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-315 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

David P. Roe, Tennessee              Ruben Hinojosa, Texas
Matt Salmon, Arizona                   Ranking Minority Member
Brett Guthrie, Kentucky              Hakeem S. Jeffries, New York
Lou Barletta, Pennsylvania           Alma S. Adams, North Carolina
Joseph J. Heck, Nevada               Mark DeSaulnier, California
Luke Messer, Indiana                 Susan A. Davis, California
Bradley Byrne, Alabama               Raul M. Grijalva, Arizona
Carlos Curbelo, Florida              Joe Courtney, Connecticut
Elise Stefanik, New York             Jared Polis, Colorado
Rick Allen, Georgia





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 30, 2015...................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3
    Hinojosa, Hon. Ruben, Ranking Member, Subcommittee on Higher 
      Education and Workforce Training...........................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Alexander, Dr. Charles J., Associate Vice Provost for Student 
      Diversity, Director, Academic Advancement Program, 
      Associate Adjunct Professor, University of California, Los 
      Angeles, CA................................................    22
        Prepared statement of....................................    24
    Cooper, Dr. Michelle A., President, Institute for Higher 
      Education Policy, Washington, DC...........................    35
        Prepared statement of....................................    37
    May, Dr. Joe D., Chancellor, Dallas County Community College 
      District, Dallas, TX.......................................    49
        Prepared statement of....................................    51
    Perna, Dr. Laura, Riepe, James S., Executive Director, 
      Alliance for Higher Education and Democracy, University of 
      Pennsylvania, Philadelphia, PA.............................     7
        Prepared statement of....................................    10
 
                      IMPROVING COLLEGE ACCESS AND
                       COMPLETION FOR LOW-INCOME
                     AND FIRST-GENERATION STUDENTS

                              ----------                              


                        Thursday, April 30, 2015

                     U.S. House of Representatives,

                  Subcommittee on Higher Education and

                          Workforce Training,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Curbelo, Allen, Hinojosa, 
Jeffries, Adams, DeSaulnier, and Polis.
    Also present: Representative Scott.
    Staff present: Lauren Aronson, Press Secretary; Alex Azer, 
Intern; Janelle Belland, Coalitions and Members Services 
Coordinator; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Brian Melnyk, 
Professional Staff Member; Daniel Murner, Deputy Press 
Secretary; Brian Newell, Communications Director; Jenny 
Prescott, Legislative Assistant; Alex Ricci, Legislative 
Assistant; Mandy Schaumburg, Education Deputy Director and 
Senior Counsel; Emily Slack, Professional Staff Member; Alissa 
Strawcutter, Deputy Clerk; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Austin Barbera, Minority Staff 
Assistant; Eamonn Collins, Minority Education Policy Advisor; 
Denise Forte, Minority Staff Director; Tina Hone, Minority 
Education Policy Director and Associate General Counsel; Tracie 
Sanchez, Minority Education Policy Fellow.
    Chairwoman Foxx. A quorum being present, the Subcommittee 
on Higher Education and Workforce Training will come to order.
    Good morning, and welcome to today's subcommittee hearing.
    I would like to thank our witnesses for joining us to 
discuss strategies for improving postsecondary access and 
completion for low-income and first-generation students. We 
appreciate the opportunity to learn from you as Congress works 
to reauthorize the Higher Education Act.
    This is a very personal issue for me. As someone who grew 
up in extreme poverty, I know firsthand what it takes to earn a 
degree in difficult circumstances as well as what that degree 
means for one's opportunity for advancement.
    Some of the most rewarding experiences I have had as an 
educator involved helping disadvantaged students overcome 
obstacles to reach their goals and achieve success. 
Fortunately, I have lots of stories like that.
    The Education and Workforce Committee has held more than a 
dozen hearings about how to strengthen America's higher 
education system for all those who choose to pursue a degree or 
credential, regardless of age, background, or circumstances.
    Research shows students who attain advanced levels of 
education are more likely to succeed in today's economy. For 
example, students who earn an associate's degree are expected 
to earn 27 percent more than their peers with a high school 
diploma over the course of a lifetime.
    For many students, however, the idea of graduating feels 
like a distant dream. Higher cost, confusing financial aid 
system, and insufficient academic preparation 
disproportionately deter low-income and first-generation 
students from accessing and completing a higher education.
    Recognizing the challenges facing these students, the 
federal government invests in numerous programs geared toward 
identifying and supporting disadvantaged students and the 
institutions that serve them. In addition to providing students 
need-based financial assistance such as Pell Grants, the 
federal government also provides early outreach and support 
services to help students progress from middle school through 
college.
    Programs such as GEAR UP and Upward Bound receive more than 
$1 billion of taxpayer dollars to support tutoring, family 
financial counseling, internships, research opportunities, and 
other preparatory and motivational services, all with the goal 
of improving access for low-income and first-generation 
students.
    And our efforts don't stop there. Because improving the 
education outcomes for disadvantaged students is an important 
priority, the federal government directly supports institutions 
that focus on serving underrepresented students in an effort to 
help them complete a higher education.
    While these efforts are well intentioned, there is a 
growing concern they are not reaching their goals. For example, 
according to a study published earlier this year by one of our 
witnesses, Dr. Laura Perna, the percentage of low-income 
students who have attained a bachelor's degree has increased by 
just 3 percent since 1970. By comparison, the percentage of the 
wealthiest students who attained a bachelor's degree has 
increased by 40 percent.
    In other words, despite the federal government's growing 
investment in access and completion programs over the last 5 
decades, graduation rates for the most disadvantaged students 
have barely budged. We have a responsibility to students, 
families, and taxpayers to ensure all of our spending in higher 
education deliver the intended results. Understanding how to 
strengthen these efforts for low-income and first-generation 
students is why our witnesses are here today.
    As we work to reauthorize the Higher Education Act, we want 
to learn about your efforts to pioneer new strategies and study 
the effectiveness of existing strategies so that more 
disadvantaged students can achieve the dream of a higher 
education.
    With that, I now recognize my ranking member, Congressman 
Hinojosa, for his opening remarks.
    [The statement of Chairwoman Foxx follows:]

 Prepared Statement of Hon. Virginia Foxx, Chairwoman, Subcommittee on 
                Higher Education and Workforce Training

    I'd like to thank our witnesses for joining us to discuss 
strategies for improving postsecondary access and completion for low-
income and first-generation students. We appreciate the opportunity to 
learn from you as Congress works to reauthorize the Higher Education 
Act.
    This is a very personal issue for me. As someone who grew up in 
extreme poverty, I know firsthand what it takes to earn a degree in 
difficult circumstances as well as what that degree means for one's 
opportunity for advancement. Some of the most rewarding experiences I 
have had as an educator involved helping disadvantaged students 
overcome obstacles to reach their goals and achieve success.
    The Education and the Workforce Committee has held more than a 
dozen hearings about how to strengthen America's higher education 
system for all those who choose to pursue a degree or credential - 
regardless of age, background, or circumstances.
    Research shows students who attain advanced levels of education are 
more likely to succeed in today's economy. For example, students who 
earn an associate's degree are expected to earn 27 percent more than 
their peers with a high school diploma over the course of a lifetime.
    For many students, however, the idea of graduating feels like a 
distant dream. Higher costs, a confusing financial aid system, and 
insufficient academic preparation disproportionately deter low-income 
and first-generation students from accessing and completing a higher 
education.
    Recognizing the challenges facing these students, the federal 
government invests in numerous programs geared toward identifying and 
supporting disadvantaged students and the institutions that serve them. 
In addition to providing students need-based financial assistance, such 
as Pell Grants, the federal government also provides early outreach and 
support services to help students progress from middle school through 
college.
    Programs such as GEAR UP and Upward Bound receive more than one 
billion of taxpayer dollars to support tutoring, family financial 
counseling, internships, research opportunities, and other preparatory 
and motivational services - all with the goal of improving access for 
low-income and first-generation students.
    And our efforts don't stop there. Because improving the educational 
outcomes for disadvantaged students is an important priority, the 
federal government directly supports institutions that focus on serving 
underrepresented students in an effort to help them complete a higher 
education.
    While these efforts are well intentioned, there is a growing 
concern they are not reaching their goals. For example, according to a 
study published earlier this year by one of our witnesses, Dr. Laura 
Perna, the percentage of low-income students who have attained a 
bachelor's degree has increased by just 3 percent since 1970. By 
comparison, the percentage of the wealthiest students who attained a 
bachelor's degree has increased by 40 percent.
    In other words, despite the federal government's growing investment 
in access and completion programs over the last five decades, 
graduation rates for the most disadvantaged students have barely 
budged.
    We have a responsibility to students, families, and taxpayers to 
ensure all of our investments in higher education deliver the intended 
results. Understanding how to strengthen these efforts for low-income 
and first-generation students is why our witnesses are here today. As 
we work to reauthorize the Higher Education Act, we want to learn about 
your efforts to pioneer new strategies and study the effectiveness of 
existing strategies so that more disadvantaged students can achieve the 
dream of a higher education.
                                 ______
                                 
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    Today's hearing will focus on how our nation can improve 
college access and completion for low-income and first-
generation college students. I want to join the chairwoman in 
welcoming our witnesses, Dr. Michelle Cooper, Dr. Charles 
Alexander, Dr. Laura Perna, and Dr. Joe May--and I am proud to 
say, from my home state of Texas.
    Preparing all students for good, family-sustaining jobs and 
careers and a bright future must be a guiding principle for HEA 
reauthorization. A highly skilled 21st century workforce is key 
to strengthening our nation's economy and to reducing income 
inequality and poverty.
    The Georgetown Center on Education and the Workforce found 
that 63 percent of all jobs will require workers with at least 
some postsecondary education by 2018. If our nation is going to 
compete in the global economy we must be sure that all these 
students are reaching their full potential and obtaining 
postsecondary education.
    Low-income and first-generation students face substantial 
hurdles in applying to college and receiving financial aid they 
need. Too often, they enter unprepared and they struggle to 
persist in their studies and ultimately graduate.
    Meanwhile, college costs have continued to rise while 
student debt now tops $1.2 trillion.
    First-generation students like myself are older, more 
likely to be independent students and to have families of their 
own. They are more likely to be enrolled part-time and to 
withdraw and reenroll over and over again the course of their 
education.
    First-generation students are most likely to be enrolled in 
associate degree programs, and many transfer between community 
colleges and 4-year institutions over the course of their 
education. This process needs to be seamless so time and money 
are not wasted retaking coursework.
    We also know that too many students enter postsecondary 
education unprepared for college-level coursework. According to 
the National Center for Education Statistics, in 2011 through 
2012, 36 percent of college students whose parents had a high 
school diploma or less reported needing to take remedial 
coursework, compared to only 28 percent of students whose 
parents had a bachelor's degree or higher.
    Forty percent of Pell Grant recipients need to take 
remedial courses to improve their basic skills. Unfortunately, 
according to Complete College America, 70 percent of students 
who begin in remedial math never enroll in the next level 
college course.
    While we need to bolster our K-12 system to ensure that 
students are entering college prepared, we should also 
encourage innovative practices to increase success rates. 
Instead of prerequisite remedial courses, some institutions are 
experimenting with co-requisites, where students enroll in 
college-level courses but also take an additional support class 
or stay for extra tutoring after class.
    MSIs, which are minority-serving institutions, enroll and 
graduate significant proportions of minority students and play 
a vital role in higher education for low-income and first-
generation students. Through innovative practices, many are 
boosting graduation rates.
    Between the years of 2000 and 2012, University of Texas at 
El Paso, an HSI in my home state of Texas, increased the total 
number of undergraduate degrees awarded by 79 percent while 
enrollment only grew by 26 percent.
    So what did they do? At U.T. Center for Institutional 
Evaluation, Research, and Planning created a data tool for 
deans to track students' term-to-term enrollment status, 
allowing advisors to contact students who do not reenroll and 
help them get back on track. We need to maintain strong funding 
levels for these institutions like El Paso's University of 
Texas.
    Pell Grants are another critical tool to keep college in 
reach for these students. Just last week I introduced four 
bills--H.R. 1956, H.R. 1957, H.R. 1958, and H.R. 1959--with our 
former colleague, Senator Mazie Hirono of Hawaii. She 
introduced her legislation that mirrors mine last week, as I 
did.
    That, ladies and gentlemen, will strengthen Pell and 
restore the summer Pell program, which has--which was key in 
helping students graduate on time and with much less debt. I 
hope this committee, members on both sides of the aisle, will 
approve these bills when they come before us.
    Finally, federal investments in GEAR UP, HEP/CAMP, and TRIO 
programs are transforming the lives of millions of 
disadvantaged students by providing them with academic support 
and services they need to success in school. The GEAR UP 
program in my district--congressional district number 15 in 
Texas--has had great success by adding a financial literacy 
component, which is helping parents and students understand the 
financial resources available to help them finance their higher 
education.
    I look forward to hearing from each one of you what other 
recommendations you as panelists may have to make a college 
education accessible and affordable to greater numbers of low-
income, minority, and first-generation college students.
    And with that, Madam Chair, I yield back.
    [The testimony of Mr. Hinojosa follows:]

Prepared Statement of Hon. Ruben Hinojosa, Ranking Member, Subcommittee 
               on Higher Education and Workforce Training

    Thank you, Chairwoman Foxx. Today's hearing will focus on how our 
nation can improve college access and completion for low-income and 
first generation college students. I want to join the chairwoman in 
welcoming our witnesses, Dr. Michelle Cooper, Dr. Charles Alexander, 
Dr. Laura Perna and Dr. Joe may from my home state of Texas.
    Preparing all students for good family sustaining jobs and careers 
and a bright future must be a guiding principle for h-e-a 
reauthorization.
    A highly skilled 21st century workforce is key to strengthening our 
nation's economy and to reducing income inequality and poverty. The 
Georgetown Center on education and the workforce found that 63 percent 
of all jobs will require workers with at least some postsecondary 
education by 2018.
    If our nation is going to compete in the global economy, we must 
make sure that all these students are reaching their full potential and 
obtaining postsecondary education.
    Low-income and first generation students face substantial hurdles 
in applying to college and receiving the financial aid they need.
    Too often they enter unprepared, and struggle to persist in their 
studies and ultimately graduate. Meanwhile, college costs have 
continued to rise, with student debt now topping 1.2 trillion dollars.
    First generation students are older, more likely to be independent 
students and to have families of their own. They are more likely to be 
enrolled part time and to withdraw and re-enroll over the course of 
their education. First-generation students are most likely to be 
enrolled in associate's degree programs and many transfer between 
community colleges and four-year institutions over the course of their 
education. This process needs to be seamless so time and money are not 
wasted retaking coursework.
    We also know that too many students enter postsecondary education 
unprepared for college-level coursework. According to the national 
center for education statistics, in 2011-2012, 36 percent of college 
students whose parents had a high school diploma or less reported 
needing to take remedial coursework, compared to 28 percent of students 
whose parents had a bachelor's degree or higher. 40 percent of Pell 
grant recipients need to take remedial courses to improve their basic 
skills.
    Unfortunately, according to complete college America, 70% of 
students who begin in remedial math never enroll in the next-level 
college course.
    While we need to bolster our k-12 system to ensure that students 
are entering college prepared, we should also encourage innovative 
practices to increase success rates. Instead of ``pre-requisite'' 
remedial courses, some institutions are experimenting with ``co-
requisites'' where students enroll in college-level courses, but also 
take an additional support class or stay for extra tutoring after 
class.
    Msi's enroll and graduate significant proportions of minority 
students and play a vital role in higher education for low-income and 
first-generation students. Through innovative practices, many are 
boosting graduation rates.
    Between 2000 and 2012, the University of Texas at El Paso, an hsi 
in my home state, increased the total number of undergraduate degrees 
awarded by 79 percent while enrollment only grew by 26 percent. Utep's 
center for institutional evaluation research and planning created a 
data tool for deans to track students term-to-term enrollment status, 
allowing advisors to contact students who do not re-enroll and help 
them get back on track. Pell grants are another critical tool to keep 
College in reach for these students.
    Just last week, I introduced four bills, (H.R. 1956, H.R. 1957, 
H.R. 1958 and H.R. 1959) with our former colleague, Senator Mazie 
Hirono of Hawaii, that will strengthen Pell and restore the summer Pell 
program which was key in helping students graduate on time with less 
debt. I hope this committee will approve these bills.
    Finally, federal investments in gear-up, hep-camp, and trio 
programs are transforming the lives of millions of disadvantaged 
students by providing them with the academic support and services they 
need to succeed in school.
    The gear-up program in my district has had great success by adding 
a financial literacy component which is helping parents and students 
understand the resources available to help finance higher education.
    I look forward to hearing what other recommendations our panelists 
may have to make a college education accessible and affordable to 
greater numbers of low income, minority and first generation college 
students.
    With that, I yield back.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much, Mr. Hinojosa.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. Without objection, the hearing record 
will remain open for 14 days to allow such statements and other 
extraneous material referenced during the hearing to be 
submitted for the official hearing record.
    It is now my pleasure to introduce our distinguished 
witnesses.
    Dr. Laura Perna is a James S. Riepe professor and founding 
executive director of the Alliance for Higher Education and 
Democracy at the University of Pennsylvania in Philadelphia, 
Pennsylvania. She is currently president of the Association for 
the Study of Higher Education.
    Dr. Perna's scholarship focuses on the way social 
structures, educational purposes, and public policies promote 
and limit college access and success and has been published in 
books, journals, and policy reports.
    Dr. Charles Alexander is the associate vice provost for 
student diversity and director of the Academic Advancement 
Program, AAP, at UCLA in Los Angeles, California. He also 
serves as adjunct associate professor in the Division of Public 
Health and Community Dentistry at the UCLA School of Dentistry.
    Prior to joining UCLA, he oversaw student admissions, 
outreach, and recruitment, academic support programs, and 
student services at U.C. San Francisco.
    Dr. Michelle Asha Cooper is the president of the Institute 
for Higher Education Policy here in Washington, D.C. Dr. Cooper 
previously served as the deputy director for the advisory 
committee on student financial assistance at the Department of 
Education and has held various leadership positions at the 
Association of American Colleges and Universities, Council for 
Independent Colleges, and King's College.
    Dr. Joe May is chancellor of the Dallas County Community 
College District in Dallas, Texas. Prior to this, Dr. May 
served 7 years as president of the Louisiana Community and 
Technical College System, where enrollment increased from 
71,000 to more than 160,000 students under his tenure. He is 
known nationally and internationally for his advocacy for the 
role of community colleges in solving today's pressing social 
issues.
    I now ask our witnesses to stand and raise your right hand.
    [Witnesses sworn.]
    Let the record reflect the witnesses answered in the 
affirmative.
    You may take your seat.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You have 5 minutes to 
present your testimony.
    When you begin, the light in front of you will turn green. 
When the--1 minute is left, the light will turn yellow. When 
your time is expired, the light will turn red. At that point, I 
will ask you to wrap up your remarks as best you are able.
    Members will each have 5 minutes to ask questions.
    Now, Dr. Perna, I recognize you for 5 minutes.
    I am not sure your mike is on.

    TESTIMONY OF DR. LAURA PERNA, JAMES S. RIEPE PROFESSOR, 
     EXECUTIVE DIRECTOR, ALLIANCE FOR HIGHER EDUCATION AND 
    DEMOCRACY, UNIVERSITY OF PENNSYLVANIA, PHILADELPHIA, PA

    Ms. Perna. Chairwoman Foxx, Ranking Member Hinojosa, and 
members of the subcommittee, thank you very much for the 
opportunity to comment on best practices for helping low-income 
and first-generation students access and complete college. I am 
honored to have the opportunity to speak with you today.
    The federal government plays an important role in promoting 
higher education attainment through the financial aid programs 
that are authorized under Title IV of the Higher Education Act. 
Of particular importance is the federal Pell Grant. Research 
consistently demonstrates the negative implications for college 
enrollment when college prices increase and grant aid 
decreases.
    The negative effects are particularly large for the 
enrollment of students from low-income families. Providing 
sufficient funding so as to at least maintain the purchasing 
power of the Pell Grant is important to preserving the 
affordability of higher education for students from low-income 
families.
    Although essential, investment in need-based grant aid is 
insufficient. The federal TRIO programs and other college 
access and success programs also contribute to the goal of 
raising higher education attainment for students from groups 
that are historically underrepresented in higher education.
    As detailed further in my written testimony, I offer five 
recommendations to guide your committee's consideration of 
college access and success programs.
    So first, target students with the greatest financial need. 
We must recognize and address the many ways that inequality is 
structured into the pathways into and through college. Students 
from low-income families have fewer financial resources to pay 
the direct cost of the college attendance and the many less 
visible costs of college access and completion.
    Students from low-income families also typically attend 
high schools and postsecondary educational institutions that 
have fewer resources to invest in and support students' 
college-related outcomes. Targeting programs to low-income and 
first-generation students helps to level the playing field for 
higher education opportunity.
    Second, assist students with navigating pathways into and 
through college with particular attention to financial aid 
processes. Although much information about college going and 
financial aid processes is available via the Internet and other 
sources, simply making information out there is insufficient.
    Students and their families need to be able to determine 
which information is most useful and relevant, given their 
financial circumstances, academic preparation, their goals, and 
their interests. Low-income and first-generation students 
especially need guidance with the many steps that promote 
college entry, including preparing for and taking college 
admissions tests, searching for colleges that are well-suited 
to their goals and interests, visiting college campuses, 
submitting college applications, and more.
    Low-income and first-generation students also need to 
understand the availability of financial aid and how to get the 
aid that is out there. They also often require assistance with 
completing financial aid application forms.
    Third recommendation is to adapt programs to recognize the 
state, regional, and local context, as well as the 
characteristics of students served. To have a meaningful effect 
on students' college-related outcomes, college access and 
success programs need to adapt the delivery of services to 
recognize the context in which the programs are embedded.
    Particularly important are the characteristics of state 
policies pertaining to high school graduation and assessment 
requirements and the higher education options that are 
available in the state, region, and locality.
    Programs also need to recognize the differences in the 
needs of the students served. So middle and high school 
students, for example, require different types of support and 
assistance than veterans and unemployed adults who aspire to 
complete college.
    Fourth, leverage federal spending to serve greater numbers 
of students. Although the federal government's investment in 
TRIO programs enables the provision of services to some 
students, many more low-income and first-generation students 
also require assistance. TRIO programs serve only a very small 
fraction, estimated less than 5 percent, of the nation's total 
population of low-income and first-generation college students.
    Given constraints on the availability of additional 
dollars, the federal government should consider ways to 
leverage its investment to encourage greater support for 
college access and success programming from other entities as 
well as partnerships among the many programs that are also 
sponsored by state governments, colleges and universities, 
philanthropic organizations, and other entities.
    The fifth recommendation is to encourage research that 
improves our understanding of best practices for college access 
and success programs. To maximize the return on investment in 
college access and success programs, we need to know more about 
what components and services work, for which groups of 
students, and in which contexts.
    With more and better research, we will ensure that finite 
resources are used to most effectively improve college-related 
outcomes for students from low-income families and first-
generation college students.
    Thank you for your attention.
    [The testimony of Dr. Perna follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
    
    Chairwoman Foxx. Dr. Alexander, you are recognized for 5 
minutes.

 TESTIMONY OF DR. CHARLES J. ALEXANDER, ASSOCIATE VICE PROVOST 
FOR STUDENT DIVERSITY, DIRECTOR, ACADEMIC ADVANCEMENT PROGRAM, 
  ASSOCIATE ADJUNCT PROFESSOR, UNIVERSITY OF CALIFORNIA, LOS 
                      ANGELES, CALIFORNIA

    Mr. Alexander. Thank you, Chairwoman Foxx, Ranking Member 
Hinojosa, and all the members of the subcommittee, for inviting 
me to testify today.
    I am a product of a single-parent household, and when I was 
young my mother aspired for me to attend college one day. As I 
came to the end of my senior year in high school, I thought I 
was prepared to enter college and compete with the rest of the 
students who were entering higher education institutions that 
year.
    However, I soon learned that college was much more 
challenging than my high school was. I was fortunate, however, 
to be recruited by a college success program that provided me 
with a summer bridge experience, academic support services, and 
the guidance that I needed to succeed; 4 years later I 
completed my bachelor's degree and later went on to earn my 
master's and doctorate in the sociology of education.
    So I can attest to the fact that if it were not for the 
support of these programs and the encouragement of my mother, 
of course, and extended family, I would not be here today 
sharing testimony with this committee.
    Let me share with you a model student academic support 
program that I oversee at UCLA. The Academic Advancement 
Program, AAP, has been in existence since 1971. It is a 
multiracial, multiethnic academic program that advocates 
access, equity, and opportunity, and excellence in its 
students.
    AAP students represent about 23 percent of the UCLA student 
body, which is about 24,000 undergraduates. It is a 
comprehensive support program that provides integrated 
services, setting the highest standards for them; promoting 
academic, personal, and programmatic excellence; and building 
communities of shared learning.
    AAP is supported by a mixture of state, federal, and 
foundation funding. State funding represents the majority of 
our overall budget. Included in my written testimony you will 
see the funding sources and types.
    A significant number of AAP students come from low-income 
families, are eligible for Pell Grants, and are in the first in 
their family to attend college; 63 percent are from 
historically underrepresented communities.
    Each summer, AAP runs a rigorous, academic, 6-week, 
residential program for 400 entering freshmen and transfers. 
This is approximately 12 percent of the 34,000 students who are 
eligible for the program. Students take two to three university 
courses, and the summer bridge program could enroll more if 
additional funding were available.
    AAP also provides peer-facilitated learning communities 
based on a dialogical pedagogy, collaborative learning 
workshops, academic personal counseling, innovative science 
programs, and scholarships. AAP has a comprehensive mentoring 
program that encourages all students to prepare for graduate 
and professional schools, and provides resources to support 
this end.
    AAP also oversees a federally funded TRIO program, the 
Ronald E. McNair Scholars Program. Twenty-three of the first 33 
McNair scholars are enrolled in graduate programs.
    Over the past 10 years, AAP has responded to a growing 
number of eligible transfer students. AAP's work with its 
transfer students has resulted in a dramatic increase in their 
4-year graduation rates, from 61 percent 15 years ago to 83 
percent today.
    We push our students to use all the university resources. 
College Honors is a nationally renowned program that provides 
students the organization and environment within which to 
pursue individual excellence. The percentage of AAP students in 
Honors has increased from 4 percent in the early 1990s to 17 
percent today.
    Another campus partner that we work closely with is the 
Program for Excellence in Education and Research in the 
Sciences, otherwise known as PEERS. PEERS is a primary 
retention program for entering underrepresented life and 
physical science students. Since its inception in 2003, 340 
students have completed the PEERS program and 84 percent have 
graduated with UCLA science degrees.
    Engagement in PEERS clearly improves academic success and 
retention in science, eliminating the achievement gap for URM 
students in science. Many of our graduates go on and earn 
Ph.D.s, go to professional school.
    We have exchanged ideas with a number of universities 
across the country, including the University of Michigan, 
Maryland, Cal Berkeley, Cal Irvine, University of Texas, and 
international universities, such as Vrije University in 
Amsterdam, the University of Rwanda, and the University of 
Johannesburg. We have been hosted by visitors from Australia, 
Great Britain, South Korea, the Netherlands, South Africa, and 
many other countries.
    A tenet of our AAP's philosophy that has resulted in 
spectacular graduation rates is the belief that when students 
work in the program to promote the success of other students, 
they gain the self-confidence and self-respect that propels 
them to graduate. By employing AAP students as tutors and as 
peer counselors, we set up a model of academic achievement that 
promotes the values of giving back to the community.
    Most AAP students employees are paid with work study and 
institutional funds, and 100 percent of these students 
graduate. A 100 percent graduate rate is AAP's goal for all of 
its students.
    Let me close by thanking Chairwoman Foxx, Ranking Member 
Hinojosa, and the other members of the subcommittee today for 
the opportunity to appear before you. I am happy to answer any 
questions at any time.
    Thank you.
    [The testimony of Dr. Alexander follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Chairwoman Foxx. Thank you, Dr. Alexander.
    Dr. Cooper, you are recognized for 5 minutes.

TESTIMONY OF DR. MICHELLE ASHA COOPER, PRESIDENT, INSTITUTE FOR 
           HIGHER EDUCATION POLICY, WASHINGTON, D.C.

    Ms. Cooper. Chairwoman Foxx, Ranking Member Hinojosa, and 
members of the subcommittee, good morning and thank you for 
this opportunity.
    At IHEP we focus on issues related to college access and 
success for low-income and first-generation students. We 
recognize the important role of colleges and universities in 
serving these students.
    Given that, I would like to discuss the role of minority-
serving institutions, MSIs, which serve large numbers of first-
generation and low-income students.
    Most MSIs are public institutions. For example, the 
majority of the 409 Hispanic-serving institutions and 296 
emerging HSIs are public, with 46 percent of HSIs being 
community colleges.
    Almost half of all students at MSIs receive Pell Grants, 
with even greater numbers of Pell recipients attending HBCUs 
and tribal colleges. While the term ``MSIs'' refer to 
institutions with similar student profiles, these schools do 
have different histories and missions. Unlike other MSIs, the 
mission of tribal colleges and HBCUs have deep historical roots 
in the communities that they serve.
    Many MSIs have strategies for educating low-income and 
first-generation students. I will mention a few, but before 
doing so, I want to stress the role of federal policymaking in 
supporting these students who can be found not only at MSIs but 
at other institutions, as well.
    Therefore, for federal policymaking I offer four 
recommendations.
    First, collect and provide more useful and usable data to 
students and their families. Students need clear and reliable 
data presented in user-friendly ways to inform their college 
choices and decisions. Likewise, policymakers need more 
comprehensive data to inform policy conversations and decision-
making.
    Second, increase the investment in the Pell Grant and 
simplify the financial aid process. Even though many MSIs try 
to hold tuition to levels that are relatively affordable, 
students still rely heavily on financial aid. To support these 
students, we must maintain and possibly even increase Pell 
Grant funding. We also need to simplify the financial aid 
process.
    Third, we must increase support for TRIO and GEAR UP. Over 
a million students combined benefit from TRIO and GEAR UP. With 
a stronger investment, both programs could help so many more 
students, especially since the need is ever growing.
    More details about these three recommendations can be found 
in the written testimony and I am happy to discuss.
    My fourth recommendation brings me back to MSIs. I 
recommend that policymakers set high expectations for MSIs and 
support those that serve their students well. Many MSI leaders 
have already taken steps to improve student outcomes and 
institutional outcomes.
    For example, the University of Texas at El Paso and St. 
Edward's University prioritize success for Hispanic students, 
which is evident by their strong outcomes and high graduation 
rates. St. Edward's actually has the highest graduation rate of 
all HSIs, at 72 percent. U.T. El Paso also offers dual 
enrollment with the local high schools and the local community 
college, which helps to reduce cost and time to degree.
    At HBCUs, like Fayetteville State University and Norfolk 
State University, faculty and student affairs collaborate on 
data-driven solutions to support students. Fayetteville State 
targeted efforts towards their men of color, and both 
institutions strengthened teaching and learning practices.
    Also, there are MSIs like California State, Northridge, 
which intentionally increased the enrollment of their Pell 
Grant recipients and first-generation students even as the 
state cut its budget. And there is North Carolina Central 
University, which eliminated waste and inefficiencies in 
several program areas and then funneled those savings into 
student success efforts.
    Institutional reforms like these examples are rarely 
discussed at the national level. Even when faced with chronic 
underfunding, these and other college leaders have simply 
decided to do more with less. While I recognize that this is an 
honorable strategy, doing more with less is not a sustainable 
strategy.
    In conclusion, it is important for federal policymakers to 
enhance support for MSIs that are enrolling and, most 
importantly, graduating and preparing their students to lead 
productive lives.
    Thank you.
    [The testimony of Dr. Cooper follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
   
    
    Chairwoman Foxx. Thank you, Dr. Cooper.
    Dr. May, you are recognized for 5 minutes.

    TESTIMONY OF DR. JOE D. MAY, CHANCELLOR, DALLAS COUNTY 
           COMMUNITY COLLEGE DISTRICT, DALLAS, TEXAS

    Mr. May. Thank you, Madam Chair, and Ranking Member 
Hinojosa, and members of the subcommittee.
    The Dallas County Community College District comprises 
seven colleges and supports more than 100,000 students through 
our 7,000 employees. You described the problem so well in your 
opening comments, and we witness the same: Changing 
demographics among our students has prompted changes in how we 
help students and how we prepare them to enter the workforce 
and earn a living wage.
    Every college in the Dallas County Community College 
District is a minority-serving institution, with diverse 
representation among Africa-Americans, Asian-Americans, and 
Latinos. Six of our seven colleges are Hispanic-serving 
institutions, and the seventh is predominantly African-
American. As a predominantly HSI system, Dallas community 
colleges offer Latino students support through TRIO programs 
and other services, as well.
    Since being designated as HSIs, the Dallas County Community 
College District colleges have closed the gaps in three key 
areas: District Hispanic enrollment reflects the demographics 
of Dallas County at 37.1 percent, and 39 percent in terms of 
completion of degrees; course performance with Hispanic 
students successfully completing attempted credit hours has 
gone up; and credentials with Hispanic students earning 31 
percent of those awarded in our most recent year of 2014.
    We emphasize completion and credentials so that students 
can be ready to earn a living wage and build a career. In our 
colleges that serve the most Hispanic students, student support 
service staff members use a case management approach to guide 
students through their academic pursuits, and we will provide 
the data in terms of the success of that approach.
    As a result, 75 percent of the TRIO participants at 
Mountain View College are members of student associations, such 
as student government, Phi Theta Kappa, and athletic teams. 
Last year, almost 70 percent of Dallas County colleges' 
Hispanic students successfully completed their courses. Both 
TRIO and Title V services are not only important, they are 
essential to continue to grow our workforce and build the 
middle class.
    We have engaged with Texas Completes, a statewide community 
college initiative to share data and strategies to improve 
student outcomes. Efforts through this partnership have led to 
an increase of 42 percent in certificates and an increase in 33 
percent in associate degrees at--in Dallas from 2010 to 2014.
    Our dual credit and early college high school programs 
offer additional options for at-risk students. Dual credit 
enables high school students to earn transferable college 
credits.
    Dallas County colleges provide dual credit tuition free to 
our students. Dual credit students also earn more credits per 
semester than our traditional students, which places at-risk 
students in a much stronger position toward completion.
    Our six early college high schools enroll 2,000 students, 
with Hispanics comprising 40 percent. They also account for 
34.8 percent of the 700 early college high school students who 
graduate with both a high school diploma and a 2-year associate 
degree. Three of these schools have achieved National Blue 
Ribbon status.
    Today everyone needs some education beyond high school. 
There are simply no jobs for those who do not have a credential 
that gives them the tools to earn a living wage.
    And I believe in order to ensure that the middle class 
dreams of our students become a reality that Congress can 
affect positive change. I would like to leave you with four 
recommendations.
    One, as the nation's demographics shift, an analysis should 
be conducted to ensure that TRIO funds are available to 
institutions that are early in the transition of serving 
minority and low-income students. Guidelines should be 
broadened to encourage partnerships with faith-based community 
organizations and others that are supporting the needs of 
similar populations.
    Two, rather than keep TRIO programs separate from others 
within the institution, they should be integrated in a manner 
that ensures that the number of students served is not limited 
by federal dollars. The approach currently taken has the impact 
of capping who is served. This cap could easily be removed by 
requiring integration with existing services.
    Increasingly, the fastest-growing HSI colleges are 
community colleges. As community colleges enroll over half of 
Hispanics in higher education, this designation is important to 
help them design successful strategies around student success 
and STEM. A continued emphasis should be placed on improving 
completion rates and student success.
    Four, in addition to partnerships--partnerships should be 
broadened to encourage the development and implementation of 
early college high schools, as this approach has a proven 
record of improving high school graduation rates, college 
readiness, reducing time to degree, and improving GPAs, and 
improving college completion.
    Thank you for your time and your attention today, and for 
your support of our students.
    [The testimony of Dr. May follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    
    Chairwoman Foxx. Thank you, Dr. May.
    I want to thank all of you for great presentations.
    I would now like to recognize my colleague, Mr. Curbelo, 
for 5 minutes for questions.
    Mr. Curbelo. Thank you very much, Madam Chairman.
    And I thank the ranking member, as well, and the witnesses, 
for making some time for us this morning.
    Dr. Alexander, you mentioned the Academic Advancement 
Program during your testimony that serves as a summer bridge 
program for entering freshmen and transfers. Florida 
International University, in the district I represent, also 
offers a summer bridge program that has helped students 
transition from high school to college.
    FIU has also created programs intended to help low-income 
and first-generation students gain access and the proper 
preparation to be successful during their experience in higher 
ed. I am proud to report that FIU is one of the nation's 
largest, most diverse institutions in higher education, with 
over 54,000 students and 200,000 alumni. Nearly 53 percent of 
FIU's undergraduate student body will be the first generation 
in their families to attain a college degree.
    To maximize access and completion, FIU has revolutionized 
student advising, created outside partnerships and initiatives, 
and leveraged Pell Grants and funding. And FIU has a strong 
partnership with Miami-Dade County public schools, focused on 
high school student success through dual enrollment and other 
programs.
    They are hoping to incentivize a K-12 higher ed 
collaboration through their program called ACCESS, which is 
chaired by Superintendent Alberto Carvalho and President Mark 
Rosenberg. So far, the programs have been very successful 
promoting enrollment and graduation rates.
    How do you think we can incentivize more of these types of 
partnerships between K-12 and higher ed to ease the transition 
for students and improve access for low-income, first-
generation, and minority students?
    Mr. Alexander. Thank you for that question.
    One of the programs that we conduct at UCLA is called the 
Vice Provost Initiative for Pre-College Scholars. It is a 
cohort program that works with eight high schools, and 
basically what happens is students are recruited after their 
ninth grade year and they are part of a cohort that enters the 
university during the summers--2 weeks during--between their 
sophomore and junior year, 5 weeks, between their junior and 
senior year.
    And the idea is to provide them this college readiness, 
this preparation, these workshops, in collaboration with their 
parents, so their parents partner in this pathway that we have 
created for these students to enter to the university. These 
students have been highly successful.
    Many have gone to other schools besides UCLA, though we try 
to recruit them, but they have been highly successful to the 
extent that the program was funded by a huge foundation grant, 
but now we are seeking institutional funding for the program 
itself. The students also receive a scholarship from the 
university--those who enroll in UCLA--a 4-year scholarship to 
help them with matriculating towards a degree.
    Mr. Curbelo. Thank you.
    And, Madam Chair, I want to ask an open question to anyone 
who will take it during my allotted time.
    I was with President Dona Shalala of the University of 
Miami earlier this week and she tells me that one of the 
greatest burdens on higher ed today is compliance, and that 
they are constantly having to deviate resources from student 
services to compliance. Do you any of you have any ideas as to 
what we can do to perhaps relieve the regulatory burden on our 
universities and colleges so that they have, in turn, more 
resources to dedicate to students--specifically the students we 
are discussing here today, the ones that most need the help?
    Ms. Cooper. I think that we definitely have to be mindful 
of the regulatory burden that institutions are certainly very 
vocal about and bringing to our attention. There are several 
things that I think could be done, and I think we need to first 
of all consider what are we asking them and whether or not it 
continues to be appropriate for the current context.
    Many questions and many of the things required currently in 
these reporting requirements are outdated; we simply no longer 
need them. And I think we need to start and focus on what are 
the kinds of questions that we need to ask, and what are the 
types of metrics that we need to gather in order to be able to 
answer them effectively.
    I would suggest looking at things like access, progression, 
cost, and post-college outcomes to start. I also note that 
there has recently been a regulatory task force that was 
convened by the American Council on Education that looked at 
this issue, and I think that they have some good 
recommendations, as well, that offer us a starting point.
    Mr. Curbelo. Thank you very much.
    My time is about to expire, but I want to thank all the 
witnesses.
    And thank you, Madam Chair, for scheduling this important 
hearing.
    Chairwoman Foxx. Thank you.
    Mr. Hinojosa, you are recognized for 5 minutes.
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    Dr. May, I was very pleased to hear you discuss the role of 
early college high schools. I believe that in my congressional 
district down in South Texas, Region One Education Service 
Center, which represents students from Laredo, Texas to 
Brownsville, Texas, 200-mile geographic area, is leading the 
state of Texas with 33 of these early college high school 
programs.
    Many students are coming out of high school with 2 years of 
college and their associate degree free of charge. In fact, we 
are working with one of our hospitals, Doctors Hospital at 
Renaissance, to implement a pilot program, first of its kind in 
the nation, which would graduate high school students with an 
R.N. degree.
    How do you believe the federal government can help expand 
this exemplary model throughout the nation?
    Mr. May. Well, one--and thank you very much. I am a early 
college high school enthusiast because it works. We see 
students often enter in the ninth grade with only being 6 
percent college-ready in mathematics graduate, and we have 100 
percent of our students who graduate from high school college-
ready in all areas, with well over a 90 percent completion 
rate; 40 percent of those are graduating with a high school 
diploma and an associate's degree.
    So I think the encouragement here are a couple of things. 
One, right now, even through data collection and reporting, we 
don't collect and look at what is going on with dual enrollment 
programs between community colleges and schools or early 
college programs, either. That would be a--I think a goal 
worthy of tracking, because the results of these efforts are 
absolutely astounding when you look at the success of--
    Mr. Hinojosa. That information that you say that we are 
lacking is something that I have heard in Texas. Dr. Steve 
Murdock, I think he has an office at Rice University, a famous 
demographer, and he has a lot of data that when I heard Dr. 
Cooper give so much information on all the MSIs, it sounds like 
some of what he has used in some of his speeches.
    And I think that you are right, we need to collect more 
information on each and every one of the MSIs, because that is 
the only way that we are going to be able to prescribe the 
right programs and methods so that we can increase those 
graduation rates.
    Mr. May. I agree. If parents can make better decisions for 
their children while they are in high school they will do so, 
and simply assuming that they are going to figure it out on 
their own without some assistance with that is less likely to 
happen than if we can provide that information that clarifies 
the importance of programs like early college high schools and 
others that can lead to student success.
    Mr. Hinojosa. I want to share with you that I came to 
Congress in 1997 and I learned what HSI meant: Hispanic-serving 
institutions. And I saw that the funding by the appropriators 
was $10 million a year for what was listed as 100 HSIs, and 
once they doled out the money, which was crumbs, maybe 20 or 30 
HSIs really got money.
    So I worked on trying to do something about that, and I am 
the author of Title V of the Education Code. And obviously I 
believe that it is a vital component in helping low-income and 
first-generation students, as we are discussing here, to 
provide targeted assistance to all MSIs, which serve larger 
numbers of these students.
    How did Title V HSI funds support your ability to improve 
completion rates for your students in Dallas?
    Mr. May. Well, it is--they are critical. With Mountain View 
College and El Centro College, we have focused on moving our 
Hispanic students into STEM programs. We have given a great 
deal of not only individual support, but encouraged them to 
engage in student clubs and organizations so that they can be a 
part of a cohort that are moving forward with like interests.
    Not only have we seen our student persistence increase as a 
result of that strategy; we have seen a growth of majors in 
STEM degrees. That has been a large part of our enrollment 
increase that has occurred as we have been able to make that 
happen.
    And in fact, we were able to use the Title V funds as part 
of an overall initiative in order to put--
    Mr. Hinojosa. I wish I had another 5 minutes to keep 
talking with you.
    Mr. May. Thank you very much.
    Mr. Hinojosa. But, Dr. Cooper, I compliment you on your 
facts. Your remarks are excellent, as all of your remarks are, 
but I was especially interested in seeing how HSIs has gone 
from 100 to over 400 HSIs. And thank goodness that Congress has 
sense enough to increase the investments in minority-serving 
institutions, because we have increased enrollment in community 
colleges and universities by over 30 percent in the last 4 
years.
    Thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    Mr. Allen, you are recognized for 5 minutes.
    Mr. Allen. Thank you, Madam Chairman.
    And thank you, to our panel--distinguished panel, for 
joining us today. It is good to have you and good to learn more 
about the education process, and particularly higher education.
    I am a new member of Congress and I come from the business 
community, so I understand a little bit about, you know, giving 
folks the opportunity to have a good-paying job. And one thing 
I have learned about education is the reason for education is 
preparing folks to get a good job.
    The other thing that I learned in business was that, you 
know, folks are wired different ways. And if we can find out 
how--you know, where their passions are, they tend to really 
excel when they get--understand their passions and are allowed 
to pursue those passions.
    And, you know, from an accountability standpoint, you know, 
I believe every young American should have the opportunity to 
explore paths after high school, and I think we need to do it 
after high school and before they spend 4 years on an 
undergraduate degree and then say, ``Okay, what do I do now?''
    And, you know, the issue that I see is that, you know, the 
traditional 4-year degree is a process, but it doesn't 
guarantee a good-paying job anymore. The traditional route is 
not the only path to a job, and many good-paying technical jobs 
go unfilled both in our district and all across the country. 
Businesses are practically waiting for young, hardworking 
Americans to step up to the plate.
    You all mentioned high school programs. Do these programs 
inform students of technical-type jobs that may be available to 
them and how they may seek those? And what are some ways that 
we can promote vocational learning to the low-income students?
    And I will just throw that out to anyone who would like to 
address that.
    Mr. May. I would be glad to comment on that. I really think 
the--you are exactly right.
    The earlier we can engage--higher education can engage with 
students while they are still in high school is very important 
to be a part of that communication. The rate of change is so 
fast that many students, parents, and teachers struggle to keep 
up with that.
    That is why, I mentioned earlier, why I think programs like 
early college high schools, where we integrate the higher 
education and the college while the student is still in school 
are very important programs. They are not for everyone, but 
they work.
    Others, where we can engage in dual credit programs, where 
a student again can begin to earn high school credit. The 
important fact that we have learned from that is that our 
students in high school can actually take--are taking a little 
heavier--slightly heavier load than our full-time students who 
are coming in as freshman, meaning that we are actually 
accelerating not only time to degree, but the chance that they 
are going to be successful and be able to get--enter a career 
and get that great job.
    Mr. Allen. Any other comments?
    Yes?
    Ms. Perna. So there is some research that suggests the 
value of helping students to understand early in the 
educational pipeline the different types of employment 
possibilities. The research suggests that having that 
understanding about how--what types of opportunities are 
available helps--makes education more relevant, helps them 
understand the many different types of pathways that we have.
    Part of the challenge that we have in our higher education 
system is that there are so many different types of 
postsecondary options. And you are right, the data suggests 
that not everyone needs a 4-year college degree. But the data 
also do suggest that most need some education beyond high 
school.
    And so I think part of the challenge is for folks to be 
able to understand what that range of choices is, what the 
benefits and the costs of those different options are, and how 
we make sure that we really do have real choice for folks.
    Mr. Allen. You know, when my parents grew up they went to 
work first and then went to college. And of course, they kind 
of found their path and then said, ``Okay, now I am going to go 
to college.'' And once you get that 4-year degree, then it 
allows you to move on to the next level.
    You know, the federal government has invested much time and 
resources into college access for low-income students. Despite 
this fact, these students still complete their degrees at lower 
rates. What can we do to improve the graduation rates for our 
low-income students?
    And again, I would throw that out to whoever would like to 
take that question.
    Ms. Perna. So it is a really complex problem. There is no 
one answer to this.
    So in order to improve college attainment we really have to 
focus on the academic readiness for success. We have to focus 
on the ability to pay. And we have to focus on making sure 
folks have the knowledge and information and support that they 
need to navigate these pathways.
    Mr. Allen. Okay.
    Ms. Perna. Broad strokes--
    Mr. Allen. All right.
    Well, thank you again.
    And I will yield back the--I have no time left.
    Chairwoman Foxx. I now recognize the ranking member of the 
full committee, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you, Madam Chair. And I thank you and 
Representative Hinojosa for convening the hearing.
    This hearing is actually fairly timely. Just this past 
Monday one of the largest for-profit college systems in the 
nation, Corinthian Incorporated, shut its doors, and that was 
after being hit with a $30 million fine by the Department of 
Agriculture and--excuse me, Department of Education--and being 
denied access to student financial assistance because of 
findings such as misrepresentation to accrediting agencies and 
students about their placement rates.
    When you find such false advertising, it is appropriate for 
the Department of Education to take action. There were other 
institutions that may be doing the same things, and we need the 
Department of Education to take the appropriate action when 
there are specific findings of misconduct.
    Now, we all know that a quality postsecondary education is 
a proven path to the middle class, and we have heard comments 
about the need for some education past the high school level in 
order to participate in today's economy. But the high cost of 
postsecondary education and the sharp reductions in student aid 
are making it very difficult for low-income and first-
generation students to participate.
    Many years ago, when the Pell Grant started, it covered 
about 75 percent of the cost of attending a 4-year public 
institution, and you heard people talk about working their way 
through college. Get a summer job and a part-time job during 
the year and you have got enough to close the gap and graduate 
with virtually no loans.
    Now the Pell Grant covers about a third of that cost, and 
even less than that for a private college, and working your way 
through college, even at 40 hours a week, is problematic 
without coming out with a debt the size of their parents' 
mortgages.
    So we have to protect the access to college, and also we 
have to protect the ability of those with financial strains to 
actually graduate.
    Just start off with a couple of questions.
    Dr. Perna, you mentioned the financial aid form. Are people 
actually not filling it out because of the complications?
    Ms. Perna. Yes. There is some evidence that suggests that 
low-income students who are eligible to receive a Pell Grant 
attend college but they haven't applied for the aid.
    Mr. Scott. Is that because of the complication of the form?
    Ms. Perna. Well, that is what the--that is one hypothesis 
on this, and it seems to suggest, given the complexity of the 
form. And what we know through qualitative research, in terms 
of understanding how folks, especially low-income students and 
students for whom college is the--they are the first in their 
families to attend college, filling out the form is 
overwhelming, to some extent there is a distrust in the 
process.
    Mr. Scott. What are your findings about the financial 
strain as a factor in completing college?
    Ms. Perna. Financial strain is certainly an important 
issue, and it plays out in several different respects. So as 
you discussed, there are only so many mechanisms that students 
have available to pay the cost of college. One is loans, and 
there is evidence that shows that some students are averse to 
taking out loans, and so, you know, that is one source--
    Mr. Scott. And so they drop out?
    Ms. Perna. Drop out or choose not to attend at all. Or they 
decide to work to try to pay the cost through paid employment, 
and that is also a tremendous source of strain for students.
    Mr. Scott. Thank you.
    Dr. May, you mentioned the coalition works together to come 
up with ideas that work. What kind of ideas did they come up 
with?
    Mr. May. Seven colleges within the state--mostly urban but 
also one rural institution--where we are really diving deep in 
the data to look at what is really working and what is not 
working. One of the initial--we really focused on what is going 
on with developmental education. As you know, the--many 
students get into developmental education and never get out, 
and never complete their degree.
    So we have collectively begun a process of overhauling and 
redesigning developmental education. In our case we have 
reduced enrollment, as a result of the data that we have used 
for this, by 46 percent this coming year in dual enrollment 
classes, but providing additional support to help students as 
they are working through regular courses to be successful with 
that.
    We have found that as we look at what gets in the way, that 
we need to help them speed up time. Time is not a friend to 
many students in completing the degree, so that is part--one 
example.
    Mr. Scott. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Mr. Scott.
    I now recognize myself for 5 minutes.
    Dr. Perna, what specific gaps do you see in available 
research regarding the success of college access programs, and 
what do you see as the repercussions of these gaps in terms of 
best serving low-income and first-generation students?
    Ms. Perna. Thank you, Chairwoman.
    So one of the important gaps in the research has to do with 
understanding what services work for which groups of students 
in which particular context. So we have a lot of variation in 
these programs, which is appropriate, given the number of 
different types of needs and places in which these programs are 
operating, and programs are doing a whole host of different 
types of things.
    There is some research around whether programs work, yes or 
no, and that research generally shows on average that college 
access programs, for example, do increase college enrollment. 
But we know less about what it is within those programs that is 
making the biggest difference.
    Chairwoman Foxx. Dr. May, can you tell us a little bit more 
about the Texas Completes initiatives? Have you worked with 
other community colleges around Texas to share the best 
practices for serving low-income and first-generation students? 
And have you changed any of your strategies for serving these 
students as a result of any collaboration that you had?
    Mr. May. Madam Chair, the Texas Completes I think is unique 
in that what these colleges have agreed to do is share data we 
normally wouldn't share with each other and to benchmark 
ourselves against each other in the process so that we can 
really get a sense among many institutions as to what is 
working and what is not working. And it has been quite 
revealing and really has resulted in many changes within our 
organization.
    I mentioned developmental education, but also it has 
impacted how we advise students, understanding that what 
students are looking for is a clear pathway to not only a 
degree, but a future, so we have changed that, restructuring, 
in many cases, the--those types of support services that we 
make available.
    Two, we have--in our developmental education we have 
invested--decreased the number of courses but increased 
tutorial support and mentoring support to help students be 
successful. As we have seen, that began to change the actual 
numbers, with more students being successful.
    Also, we have realized that we have got to do a better job 
of encouraging students to go into STEM programs, and then what 
gets in the way of them completing those. So we have seen the 
completion in those areas go up dramatically as we have been 
able to share data and compare programs.
    Chairwoman Foxx. Thank you very much.
    Dr. Alexander, you mentioned that you oversee--your program 
oversees one TRIO program. Have you noticed any particular 
regulatory burdens or programmatic constraints inherent in that 
program that keep you from being as innovative as you can be 
with your other AAP programs serving low-income students?
    Mr. Alexander. Chairwoman Foxx, there are some glitches in 
some of the TRIO regulation that keeps us from doing some of 
the things that we do with some of the other programs. 
Certainly, you know, some of the requirements of TRIO programs 
are pretty specific as relates to activities, and some of the 
things that we do with other programs allows us to use more 
discretionary funding to enrich students' academic backgrounds.
    And so that is probably the one area in which we have had 
some challenges, but other than that, you know, our program has 
been quite successful.
    We have actually had a student support services program in 
the past, as well, and some of the technicalities around that, 
particularly with the prior experience points, sometimes can be 
quite challenging, so--
    Chairwoman Foxx. In the very short time I have left, could 
you talk a little bit about your--the unique experiences of 
working with transfer students?
    Mr. Alexander. Certainly. We actually have a Center for 
Community College Partnerships that works with 24 community 
colleges in the L.A. Basin, and the idea behind that is to send 
students who have transferred into UCLA back to their home 
institutions to help other students with the application and 
college readiness process.
    We also have a Transfer Alliance Program, which our faculty 
and our administrators work with community college faculty in 
terms of getting their courses up to par so that students 
actually can have transferrable courses that count towards a 
degree when they enter the university. So it has been a 
longstanding collaborative experience for us.
    Chairwoman Foxx. Thank you very much.
    Mr. Jeffries, you are recognized for 5 minutes.
    Mr. Jeffries. Thank you, Chairwoman Foxx.
    And let me also thank the witnesses for your presence and 
testimony here today.
    Fifty years ago seemed throughout much of America there 
were robust opportunities connected to manufacturing jobs and 
factory jobs in much of the country that would allow an 
American to have a pathway toward the middle class without 
having to obtain a college education. Those days have 
subsequently abandoned us. It seems many of those factory and 
manufacturing jobs have moved overseas and aren't available to 
Americans.
    So we are in a situation now where increasingly, many of 
the jobs in our economy are going to require some higher 
education. I think in about 5 years I have seen statistics 
suggesting that more than 65 percent of the jobs will actually 
require a college degree.
    And so given this changing sort of landscape that we find 
ourselves in, maybe we will start with Dr. Perna, I mean, what 
do you suggest that we do from a federal government perspective 
in investing in the notion that we are going to have to better 
prepare a wider number of Americans for successfully completing 
a higher education in order for us as a country, I think, to 
remain prepared for our folks to adequately succeed in the 21st 
century economy?
    Ms. Perna. Thank you, Congressman.
    I think that you are asking exactly the right question. I 
think that this is one of the most important issues facing our 
country right now.
    The data suggests that we cannot achieve the levels of 
workforce readiness that are required without closing the gaps 
that exist in educational opportunity. Unfortunately, there is 
not a simple answer to do this, right, so we have a 
comprehensive educational system, and there--the ways in which 
differences in opportunity for high levels of education are 
structured into our system begin early.
    So we have profound differences in academic readiness that 
happen in the K through 12 schools, so this is an important 
structural issue that has to be addressed. We also have rising 
cost of college attendance; you know, the financial barriers 
are another section of--that has to be addressed. And we have 
to improve students' ability to navigate the complex pathways 
that we have.
    So, you know, I really see those three different buckets.
    The federal government plays a role, but other stakeholders 
play a role as well. So I think that one role of the federal 
government is to provide a catalyst and provide leadership to 
signal the importance of these issues and try to--you know, I 
think part of what we need to accomplish as a nation is 
identify the roles and responsibilities of different players in 
this complex process because there is no one simple, easy thing 
to do.
    Federal government certainly plays an important role 
historically and needs to continue with regard to financial aid 
and ensuring that college is affordable to all students. The 
role with regard to college access programs is important, so in 
the absence of the types of systemic and structural change in 
the K through 12 academic system, we need to have these 
additional support programs in place to help students navigate 
our system.
    And the same is true at the college level. Students need--
    Mr. Jeffries. Thank you.
    Dr. Alexander, in terms of the shift from a manufacturing, 
factory-based economy of 50 years ago to, increasingly, an 
economy anchored in the technology and innovation sectors, what 
we have got right now, I believe the vacancy rate is somewhere 
between 20 to 25 percent within the technology and innovation 
economy across the country. Extraordinarily high vacancy rate.
    Companies consistently tell us as members of Congress, ``We 
can't find highly qualified workers to fill these reasonably 
well-paying jobs even at the entry level, sometimes as high as 
$70,000, $80,000.''
    What do we need to do in order to tackle the preparation 
gap for younger Americans? Because it seems like in these 
sophisticated fields--science, technology, engineering, 
mathematics, computer programming--it can't just start at the 
higher education level. What needs to be done to create a 
reasonable opportunity for success so that when they get to an 
institution like UCLA they are prepared to tackle these STEM 
fields?
    Mr. Alexander. In the 10 minutes--10 seconds that I have, 
actually 7, I agree with Dr. Perna that early preparation is 
key. Early preparation, K-12, is critical in terms of 
preparation for these careers that you are mentioning.
    Mr. Jeffries. Thank you. I yield back.
    Chairwoman Foxx. Thank you, Mr. Jeffries. You seem to get 
to the heart of the problem.
    Dr. Adams, you are recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chair.
    And let me thank all of the witnesses who are here today.
    You know, we have talked, I guess, a lot about access and 
affordability, and for me that is key. Without affordability, 
access doesn't mean very much.
    I am one of those first-generation--or I was--first-
generation, low-income students. I was able to survive and be 
successful at the Ohio State University, get my Ph.D. there, 
because of the North Carolina A&T, an HBCU that prepared me, 
gave me the skills that I needed that I didn't have when I left 
high school from New Jersey.
    But I want to ask Dr. Cooper about Parent PLUS loans. This 
program underwent some changes in 2011 that resulted in 
students who were previously eligible and they were being 
denied as a result of the changes.
    It affected a lot of students, a number of them in North 
Carolina, their ability to pay tuition. Dramatic effects on 
HBCUs.
    When the problem first surfaced in 2012, 400,000 students 
nationwide were impacted; 28,000 HBCU students negatively 
impacted.
    So do you believe that the recent changes to this program 
are enough to fix the problem created by the 2011 changes? And 
if not, what do you believe we need to do to address this 
problem?
    Ms. Cooper. Thank you for your question.
    I think it is unfortunate that the changes to the program 
denied so many students immediate access to college. Many of 
them had to drop out mid-semester. And certainly all 
institutions had the impact of this change in the loan program, 
but we saw it most dramatically at many of the HBCUs, as you 
mentioned.
    I think it is important that when we think about the 
changes to the Parent PLUS loan program, as well as any changes 
to financial aid, is that we keep them in the context of the 
broader conversation of college affordability, which is a 
complicated conversation--one that involves the states and 
their role in supporting affordability, but also institutions 
and their budgets, as well as the federal government.
    So while the federal government certainly controls the 
federal PLUS loan component of that, we have to have a 
conversation with the other entities to make sure that college 
costs are maintaining a more affordable level so that we don't 
have the types of dramatic impacts that we saw when those 
changes took place.
    Ms. Adams. Yes. Thank you very much.
    I have spent 40 years teaching at Bennett College in 
Greensboro, so from another perspective, I certainly understand 
the plight of these students, and just a few days ago launched 
the bipartisan HBCU Caucus with my colleague, Bradley Byrne, so 
we are going to be working hopefully across the aisle and 
educating folks, because I think that is important.
    So, Dr. Cooper, I want to ask you, in terms of the 
demographics and the students who attend HBCUs. And we know 
that they are different students, and perhaps if the same 
demographic of students at HBCUs were at other schools in the--
we would have higher graduation rates.
    So how would we then measure the success of HBCUs while 
taking into account that they enroll a significant percentage 
of low-income, first-generation students?
    Ms. Cooper. That is a great question. Thank you.
    I think it is absolutely correct that HBCUs enroll a number 
of students who come with academic challenges. They enroll a 
number of students who come with financial challenges. And 
these institutions have historically been chronically 
underfunded.
    So they are really trying to do a lot with the most 
neediest students.
    My advice is to make sure that we are supporting these 
institutions, but supporting them in ways that foster student 
outcomes and better student outcomes. We want to make sure that 
we are creating a viable pathway for these students to come 
into the institution, to get a degree that gains--earns them 
some value, but we also want them to graduate.
    That is very important and it is a challenge for HBCUs 
because of the demographic of that population, but it is not 
impossible. And we have seen evidence of that in many 
institutions across the country who are really, you know, 
owning their student population and saying, ``We are going to 
do whatever it takes to serve them well.''
    So my advice to the federal government is to support that, 
to show evidence of that, and to raise the visibility of those 
institutions who are doing a tremendous job. We don't hear 
about those stories enough.
    Ms. Adams. One quick comment on Pell Grants and the need 
for access to these funds year-round, if you could comment on 
that?
    Ms. Cooper. Could you please repeat that for me one more 
time?
    Ms. Adams. Pell Grants. We don't have them in the summer 
anymore. What is your thought about it?
    Ms. Cooper. The Pell Grant program is the centerpiece of 
the financial aid program, and certainly we need them at all 
these institutions, but minority-serving institutions that are 
serving high numbers of students who have financial challenges 
need them tremendously, so we have to make sure that we are 
investing in that--
    Ms. Adams. Thank you very much. I am out of time.
    Thank you, Madam.
    Chairwoman Foxx. Thank you.
    Mr. Polis, you are recognized for 5 minutes.
    Mr. Polis. Thank you, Madam Chair.
    Dr. Cooper, our discussion today and the comments and 
questions really focused on creating opportunities and 
encourage college completion among low-income and first-
generation students. Can you talk about how programs like 
competency-based education and innovations in that area can 
provide students the flexibility they need to complete their 
degree and reduce costs and remove--reduce some of the cost 
barriers?
    Ms. Cooper. Certainly. Thank you.
    So programs like competency-based education and a number of 
these other types of innovations that we see and are hearing 
more and more about certainly have some promise. I think that 
we should continue to study them; we should continue to explore 
the efficacy of them and how they are not only serving 
students, but providing them with post-college outcomes that 
give them long-lasting, positive effects.
    Mr. Polis. And do you find that some of the challenges, in 
particular with low-income students, revolve around scheduling, 
having to work jobs, and that the flexibility that a 
competency-based course, perhaps online, might have might make 
it easier for them to matriculate?
    Ms. Cooper. Sometimes that is the case. What we have often 
found is that for a low-income and first-generation student the 
best approach is usually either if not--if it can't be fully in 
a classroom, some type of a hybrid model, where you have some 
face time that is one-on-one with an instructor as well as the 
use of technology.
    Mr. Polis. And I also wanted to ask you about the 
flexibility for Pell dollars. In my district, Colorado State 
University saw the number of Pell-eligible students enrolling 
in summer programs double when they were able to use their Pell 
dollars over the summer term--more on-time graduations, a 
number of effects. Unfortunately, the flexibility is gone and 
students who depend on Pell dollars can only use them in the 
fall and the spring.
    What could Pell flexibility mean in particular for low-
income and first-generation students?
    Ms. Cooper. We certainly know that the year-round Pell 
program adds value to these low-income students. They are able 
to enroll at a continuous pace and graduate more on time. So we 
hope that those types of programs can come back.
    Mr. Polis. And might that be an issue--and again, in 
particular low-income students, might have to balance work and 
a schedule might enable them to take one or two classes less 
each semester, work a little bit more to support themselves, 
take classes over summer to supplement that? Is that what can 
help on--particularly on the low-income student end?
    Ms. Cooper. It is the flexibility, as you say. It is the 
flexibility that accommodates the nuances of their lifestyle.
    Mr. Polis. And, Dr. May, if you care to comment on either 
of those questions, but I did want to ask you an additional 
one, as well.
    In Colorado we have a very robust dual enrollment program, 
not only removing some of the economic barriers to high-
schoolers getting college credit and associate's degrees, but 
also having the sort of 360-degree, you know, support that a 
public school K-12 side can offer. Many students graduate from 
high school already having completed an associate's degree or 
at least some college degrees.
    Can you talk about the importance of dual enrollment 
programs for low-income and first-generation students? And can 
you discuss any models where dual enrollment students could 
also be Pell eligible?
    Mr. May. And absolutely. Just to point out, I was the 
former president of Pueblo Community College and former 
president of the Colorado Community College System, so I am 
very familiar with the robust dual enrollment program leading 
to many students in Colorado to graduate with both a high 
school diploma and an associate degree. That is where we really 
had the original data to prove that the initiative worked, that 
if we could get students enrolling in college classes earlier, 
that we increase dramatically the likelihood they would earn 
not only bachelor's degree, but an advanced degree.
    So I think that is a proven model that needs to be 
expanded.
    I would also, again, kind of reiterate early college high 
school is a variation of that, and--which is really a more 
tightly managed process for dual enrollment-type programs in 
many ways. So they work, and we need to encourage it.
    I would also, like I say, just want to comment on the 
competency-based education. We do see great value, but where we 
really see that value are for people who what we call have 
already earned education equity, where they may have been in 
the military or the workforce and they can bring that previous 
education right into a college degree without having to retake 
courses. Again, it accelerates time to degree and gives a 
reward to an individual who has already been able to 
demonstrate prior learning.
    Mr. Polis. And what do you think we can do here? Obviously 
a lot of the dual enrollment programs are locally driven. What 
type of policies here could encourage and further allow the 
flexibility for dual enrollment programs?
    Mr. May. Well, I can tell you, the number one barrier--in 
most states across the country for a dual enrollment program is 
the issue of do the high schools get the funding for it or does 
the community college get the funding for it? They end up in a 
battle back and forth, and I think clarification that it really 
is about the student, not about the institutions are the most 
important aspect of that.
    Mr. Polis. Thank you.
    Yield back the balance of my time.
    Chairwoman Foxx. Thank you, Mr. Polis.
    Mr. Hinojosa, I recognize you for closing remarks.
    Mr. Hinojosa. Thank you, Chairwoman Foxx.
    This hearing today has been very timely, as Congressman 
Bobby Scott mentioned. I think that we are going through 
appropriations bills right now and amongst the cuts that are 
being discussed are on education and Pell Grants and funding 
that each and every one of you has said has made a difference 
in the last 4 years in increasing the enrollment and graduation 
rate of men and women who in the past have not had the access 
and affordability to higher education, and so that troubles me.
    But I am hoping that both sides of the aisle will see their 
way clear to continue the investment that increased, as I said, 
in the past 6 years towards MSIs, because the demographics 
indicate that Latinos and African-Americans make a majority of 
the population in my state of Texas and many other states, and 
that if we are going to have better quality of life for all 
Americans, we must invest in education, everywhere from very 
early pre-kinder all the way to what we are discussing here, 
and that is the community colleges and the universities.
    So we thank you for giving us current information that 
could be used by the leadership of both sides of the aisle and 
that, with your help, that we can continue to emphasize the 
recommendations that were made by each one of you, because, as 
Dr. Foxx said, she understands it and it is very important to 
her since it impacted her the way that gave her the opportunity 
to get a higher education, get a doctorate degree, and be 
chairman of this subcommittee.
    I have a bachelor's and a master's degree in business 
administration and I think that I have really enjoyed my work 
here 19 years on the Education Committee because I think that 
we are making a difference in helping get education for all.
    So again, we thank you for the work that you are doing, and 
keep the hope up for those who listen to your remarks 
everywhere you go to speak, because I think that they will be 
encouraged by the growth in the population of particularly 
women and minorities in higher education. And I just hope that 
in the next 5 years that we can see many more women who are 
graduating from colleges at a rate of about 55 percent, 
compared to 45 percent for the men, can go on to serve on 
corporate boards, to go on to head programs like you all have, 
and that as a result of that we are going to be able to 
continue to increase the investments in higher education.
    And we thank you for being here.
    I yield back.
    Chairwoman Foxx. Thank you, Mr. Hinojosa.
    This has been, in my opinion, a very good hearing this 
morning, not just because it is a subject that most of us who 
are here this morning are very interested in, but I think 
because you provided a lot of good information to us.
    I alluded to it in the beginning, that I have been involved 
with these programs for a long time. When I stop to think about 
how long ago that was it is a little surprising to me.
    Like Dr. Adams, I have been involved in the education 
enterprise for a long time. I became involved with Upward Bound 
in 1972, with Special Services in 1973.
    I did that for 4 years and then I was in charge of academic 
advising and orientation for all new students--transfers and 
freshmen--at Appalachian State University. Worked for the 
program for minority students who didn't meet admissions 
requirements. And one of them I met the other day at the 
installation of the new chancellor at Appalachian and he 
really, really made me feel great about his experiences as a 
result of being in that program. So I know that these programs 
work in many cases.
    Just before Mr. Jeffries said what he said, I had written 
down to comment that your comments all point back to the 
inadequate preparation that students have for going to college. 
And so our problems begin much sooner than the time students 
present themselves to college.
    And here we are in the middle--I mean, in the 21st century, 
and we have been talking about these issues, again, since I was 
the director of Upward Bound and Special Services, and yet, we 
are still talking about them in practically the same ways. I 
will tell you, it is very frustrating to somebody like me.
    And, Dr. Perna, while I am a big proponent of doing more 
research, and particularly honing in on what works and what 
doesn't work, in many cases we know what works and what doesn't 
work.
    You all represent--Dr. Alexander, Dr. May--you have shown 
us. I mean, the programs I ran, I knew what worked and what 
didn't work. But yet, somehow or another, we can't seem to get 
that message spread across our culture.
    Even Mr. Hinojosa, who is always looking for us to increase 
funding, said in his program that--I mean, his comments--not 
just a matter of money. It is a matter of tracking the 
students. It is a matter working with the students. It is a 
matter of showing them what is possible.
    And it seems to me the examples you all have given, 
particularly Dr. May, Dr. Alexander, and I think the research, 
probably, that Dr. Perna is showing, is that the colleges have 
to take some more responsibility in this area. And it is a 
vested interest of theirs to do that. It is a vested interest 
of the states to do this, to say, ``We want to invest more 
money in our students and not just rely on the federal 
government to do these things.''
    One of the concerns I have always had is why we don't shift 
more money into the programs that have proven their successes 
and say, ``Okay, you have proven your success. Let's help you 
more,'' and say, ``We want more role models.''
    You know, Mr. Jeffries, again, alluded to the fact that we 
have a lot of jobs out there. I believe, the staff tells me, 
the latest number is 5.1 million jobs unfilled in this country 
because people do not have the skills to fill those jobs.
    What is wrong with us, as the greatest nation in the world, 
that we can't figure out a system to match the people who are 
unemployed with those jobs? I mean, it isn't a lack of money; 
it is a lack of will somewhere.
    And I think Dr. Perna pointed it out, too. Whose 
responsibility--who is going to accept this responsibility and 
how do we define these?
    So it is enlightening to hear you all, but it is also a bit 
frustrating because, again, we have been hearing these stories. 
I mean, when I was the director of Upward Bound we talked about 
this at every meeting--regional meeting: How can we get the 
institutions to take more responsibility?
    Again, seems like we haven't learned a lot in the last 40-
some years, or at least people haven't changed their behaviors 
very much.
    So I appreciate you all coming today more than I can tell 
you, and you have been very kind to share your expertise with 
us. And I want to thank all of you for your commitment in this 
area to helping students and to make--and to doing what you can 
to help other people understand what they can do to help these 
students, who I think do want to succeed but they do need a lot 
of guidance.
    So thank you very much.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
